HHS/OIG-Audit--"Review of Periodic Interim Payments Made by Blue Cross ofWestern Pennsylvania, (A-03-91-00033)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Periodic Interim Payments Made by Blue Cross of Western Pennsylvania," (A-03-91-00033)
January 8, 1992
Complete
Text of Report is available in PDF format (434 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that Blue Cross of Western Pennsylvania (BCWP) made erroneous payments of about $2.7 million to
14 hospitals under the Periodic Interim Payment reimbursement method. The BCWP has done little to recover the overpayments,
and has failed to comply with Medicare recovery guidelines. As a result, less than $200,000 has been recovered, or about
6 percent of the $2.7 million owed to Medicare.